UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




       Regional Office Casehandling
                Efficiency


                Report No. OIG-AMR-50-06-01




                                              March 2006
INSPECTOR GENERAL




      NATIONAL LABOR RELATIONS BOARD
                       WASHINGTON, DC 20570

March 16, 2006

I hereby submit a n audit on Regional Office Casehandling Efficiency, Report No.
OIG-AMR-50-06-01. This audit was conducted to evaluate the efficiency of
Regional Office casehandling processes in unfair labor practice and
representation cases. This included evaluating case processing timeliness.

We did not identify inefficiencies in the processes used by the four Regional
Offices visited. Cases were processed in compliance with Agency policy and the
Regional Offices visited followed best practices identified in Agency guidance.
Our analysis of mean processing times did not identify bottlenecks or a
systemic problem. Unfair labor practice and representation cases were
generally processed in a timely manner.

In two Regional Offices, the initial contact with the parties was not documented
in a significant number of cases. We did not include a recommendation related
to this finding because the issue was already addressed by a n internal report
based on the internal quality control review process.

Most of the 11 unfair labor practice case and 16 representation case data
elements tested were generally accurate. Some data elements had a n error rate
we consider significant. We did not include a recommendation related to this
finding because the criteria regarding proper data input is clear and the Agency
recently implemented improvements to its data integrity program.

An exit conference was held on February 8, 2006, with representatives of the
Division of Operations-Management. A draft report was sent to the Division of
Operations-Management Associate General Counsel on February 17, 2006.
The Associate General Counsel's response had no comment on the report.


                                                           P
                                     ane E. Altenhofen
                                    Inspector General
                                    TABLE OF CONTENTS

BACKGROUND ...................................................................................1

OBJECTIVES, SCOPE, AND METHODOLOGY .....................................2

FINDINGS...........................................................................................3

C CASES ............................................................................................3

       Charges Sent To Parties .............................................................4
       Initial Contact with Charging Parties ..........................................4

R CASES.............................................................................................5

       Documentation ..........................................................................6

TRAVEL AND ALTERNATE INVESTIGATIVE TECHNIQUES .................6

DATA ACCURACY ...............................................................................7

       C Cases......................................................................................7
       R Cases......................................................................................7

ATTACHMENT ....................................................................................9

APPENDIX

     Memorandum from the Associate General Counsel, Division of
     Operations-Management, "Regional Office Casehandling Efficiency
     OIG-AMR-50," dated March 9, 2006
                                  BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act
(NLRA) of 1935, as amended. The NLRA is generally applied to all enterprises
engaged in interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroad and airline
industries. The Fiscal Year (FY) 2006 appropriation authorizes 1,840 full-time
equivalents that are located at Headquarters, 51 field offices throughout the
country, and 3 satellite offices for administrative law judges. NLRB received an
appropriation of $252,268,000 for FY 2006, less an across-the-board rescission
of 1 percent, leaving a net spending ceiling of $249,745,320.

The primary function of the NLRB is the effective and efficient resolution of
unfair labor practice charges (C cases) and representation petitions (R cases)
filed voluntarily under the NLRA by individuals, employers, or unions. The
Agency does not initiate these charges or petitions, but only acts on those
brought before it. The charges and petitions are received and processed by the
Agency's 51 field offices.

When a C case is filed, the field office conducts an investigation to determine
whether the allegation that a violation of the NLRA occurred has merit. If the
field office determines that the charge lacks merit, the charge will be dismissed
if it is not withdrawn by the charging party. If the field office finds that the
charge has merit, it will seek a voluntary settlement. If a settlement is not
reached, a complaint is issued and a hearing before an administrative law
judge is scheduled. Settlement is still pursued after the hearing is scheduled.

When a field office receives a representation petition, it is immediately docketed
and the field office determines if a question concerning representation affecting
commerce exists. If the field office determines that a petition calling for an
election should be processed, the field office attempts to secure an election
agreement. These agreements address issues such as the time and place of the
election and the appropriate unit. If an agreement cannot be reached, the field
office conducts a hearing and the Regional Director issues a decision directing
an election or dismissing the petition. After either an election agreement or a
decision directing the election, the field office will conduct an election and issue
a certification of representative or certification of results. The field offices also
administratively investigate, hold hearings, and issue decisions on petitions
regarding the placement of employees in a unit.

In FY 2005, the Agency received 24,276 C cases and 5,151 R cases. During FY
2005, the median time to issue a complaint was 93 days, and the median time
to proceed to an election from the filing of a petition was 38 days.




                                         1
                OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of this audit was to evaluate the efficiency of Regional Office
casehandling procedures in C cases and R cases. This included evaluating
case processing timeliness. We evaluated C cases from the receipt of the
charge through the beginning of the hearing before an administrative law judge
and R cases from receipt to the final Regional Office disposition. Our scope
included C cases in which a Regional determination occurred during FY 2005
and R cases received during FY 2005.

We interviewed staff in the Division of Operations-Management (Operations-
Management or OM) and in four Regional Offices to identify casehandling
processes. We reviewed laws, regulations, and Agency guidance related to
Regional Office casehandling procedures. Agency guidance included the NLRB
Casehandling Manual and Operations-Management and General Counsel (GC)
memoranda that provided best practices and cost saving instructions. These
interviews and detailed testing were used to determine whether the four
Regional Offices were following Agency policy, best practices, and cost saving
instructions. We also reviewed these processes to determine whether
additional efficiencies could be identified.

In each Region visited, we selected random samples of 30 C cases and 20 R
cases. We also tested C cases in which a hearing was held. These cases were
selected in addition to those in the random samples because they are
important cases included in our scope that occur infrequently and were not
selected by the random sample.

For each case selected, we obtained data from the case file that we used to
calculate the mean (average) length of time between critical case processing
events to determine whether bottlenecks existed and whether the timely
processing of interim steps had an effect on the overall case processing time.
We also tested 11 C case data elements and 16 R case data elements to verify
the accuracy of the information in the Case Activity Tracking System (CATS).
The universe of C cases and R cases is shown as an attachment to this report.

We interviewed staff in Operations-Management and the four Regional Offices
visited to learn about the Information Officer Program. We obtained and
analyzed data from CATS related to this program to identify efficiencies that
could be gained.

This audit was performed in accordance with generally accepted government
auditing standards during the period of October 2005 through February 2006
at NLRB Headquarters in Washington, D.C. and the following Regional Offices:
Region 2 – New York, Region 11 – Winston-Salem, Region 13 – Chicago, and
Region 32 – Oakland.



                                       2
                                   FINDINGS

We did not identify inefficiencies in the processes used by the four Regional
Offices visited. Cases were processed in compliance with the NLRB
Casehandling Manual and the Regional Offices visited followed best practices
identified in Agency guidance. Our analysis of mean processing times did not
identify bottlenecks or a systemic problem with case processing.


C CASES

GC Memorandum 95-15, Lightening the Regional Office Workload, dated
August 25, 1995, established the Impact Analysis approach to case
prioritization and management. Impact Analysis classifies cases into three
categories based on relative priority. The Impact Analysis timeframes to
dispose of C cases, as set forth in GC Memorandum 00-06, are 7 weeks for
Category III cases, 9 weeks for Category II cases, and 12 weeks for Category I
cases. Cases that are not disposed of within this timeframe are considered
"overage." Cases that do not meet the Impact Analysis timeframes for reasons
outside the Regional Office's control are not considered overage.

C cases were generally processed in a timely manner. Procedures varied some
between the Regional Offices because they adapted Agency-wide guidance to
their particular operating environment.

Processing times varied as a result of the specifics of the cases reviewed. Also,
times for interim tasks did not have a direct correlation with overall processing
times. We believe, however, that promoting timely processing of interim tasks
is a sound business practice. The average time to process interim tasks and
overall disposition in the C cases tested are shown below.


                           C Case Processing Times

                                            R-2    R-11     R-13     R-32
Average days from receipt to:
  Sending letters to the parties             5.1     0.4       1.3       0.9
  Initial contact with charging party        8.5    13.6       5.3       8.6
  Charging party affidavit
       Category III                         20.9    37.0       8.3      7.3
       Category II                          21.6    34.1      13.9     23.3
       Category I                            NA     37.3       NA       NA




                                        3
                              C Case Dispositions

                                            R-2    R-11      R-13     R-32
  Average Days to Disposition
      Category III (49 days)                70.4     81.5     45.6      26.3
      Category II (63 days)                 61.7     69.6     36.1      60.6
      Category I (84 days)                  34.0     71.3       NA        NA
Percentage of cases disposed of               97       87      100       100
 during the month due

Charges Sent To Parties

The NLRB Casehandling Manual states that immediately upon docketing of a
charge, a written acknowledgement of the filing is sent to the charging party.
The manual also notes that the Regional Office serves a copy of the charge on
the charged party upon docketing.

Three of the four Regional Offices visited were expeditious in sending charges
to the parties. Region 2 took on average 5.1 days to send the letters with the
charge to the parties. For 11 of the 30 cases (36.7 percent), the Region took 1
week or longer, with a maximum of 12 days to send the charge to the parties.
Staff in Region 2 said that possible reasons for the delay were an increase in
charges at a particular time and staffing issues. They also acknowledged that
charges should be sent right away.

Initial Contact with Charging Parties

The NLRB Casehandling Manual states that at the earliest possible date,
consistent with other casehandling priorities, the Board agent should contact
the charging party by telephone. The manual also notes that the Board agent
should maintain a record of the agent's activities and contacts in the case file.

In three Regional Offices visited, the Board agent contacted the charging party
within an average of 9 days of the filing of the charge. Region 11 took, on
average, nearly 2 weeks to contact the charging parties. In 15 of the cases (50
percent), the charging party contacts were within 1 week, but the time to
contact the charging party in 4 cases was 62, 62, 34, and 31 days. Each of
these cases was a Category II case, which means that the Region should
dispose of the case within 63 days.

Region 11 stated that in cases where a questionnaire is not sent to the parties
the agent is expected to make contact with the charging party as time permits
based on a prioritization of caseload. They added that no time frame for when
this should be done exists.



                                        4
R CASES

The NLRB FY 2005 Performance and Accountability Report includes a
performance measure to hold elections within 42 median days of filing a
petition.

R Cases were generally processed in a timely manner. Most cases that took
longer to process were the result of the R case being blocked by a related C
case. Best practices, such as faxing the petitions to the parties on the same
day and setting hearings for between 10 and 14 days after the filing of a
petition, were utilized. In two Regional Offices, the initial contact with the
parties was not documented in a significant number of cases.

The Regional Offices visited were generally assigning the cases and sending the
petition and notice of hearing on the date of filing and contacting the parties in
an expeditious manner. Regional Offices visited met time targets in the
majority of cases. Even when the processes varied between Regional Offices,
no inefficiencies were detected. For example, the four Regional Offices assigned
R cases differently. In Region 11, the Assistant to the Regional Director
assigns cases on a rotating basis. In Region 13, R cases are assigned to any
team supervisor based on team availability. Region 2 utilizes one supervisor
whose team handles the R cases. Region 32 has one Board agent who
monitors all R cases. Each process appeared to work for the Regional Office, as
reflected in the casehandling times below. Processing times that appear to
indicate less timely processing of actions were due to case specific situations
that are identified below the table.


                           R Case Processing Times

                                         R-2        R-11       R-13     R-32
Average days from receipt to:
  Sending petition to the parties            0.3        0.3       1.3      0.5
  Sending notice of hearing                  0.2   Same day       2.4      0.5
  Initial contact with employer              2.6        2.3       4.0      2.3
  Initial contact with petitioner            2.7       10.4       4.6      3.4
  Election agreement                        14.5       15.4      12.4     24.0
  Election held                             37.5       43.7      55.6     48.6
Median days from receipt to election        36.5         40        38       42

In some Regional Offices, cases with extremely long, but justifiable, times
skewed the results.

•   In Region 13, the maximum time from receipt to sending the Notice of
    Hearing was 25 days. This was for a unit clarification case, which has a


                                        5
    lower priority than other R cases. Removing the effect of this case, the
    average dropped from 2.4 to 1.1 days; this is consistent with the other
    Regional Offices.

•   In Region 11, the maximum time from receipt to contact with the petitioner
    was 112 days. This case was blocked by a C case. Removing this case from
    the calculation results in the average dropping from 10.4 days to 2.6 days.

•   In Region 32, the maximum time from receipt to an election agreement was
    127 days. This case was blocked by a C case. Removing this case from the
    calculation resulted in the average dropping from 24 days to 14.6 days.

•   Three of the four Regional Offices did not, on average, hold an election
    within 42 days of receiving the petition. In each case, the results were
    skewed by either a blocked case or a case with a longer time lag due to the
    nature of the case. Removing these cases resulted in all four Regions
    holding elections within an average of 42 days. All four Regions met the
    goal of holding elections in 42 median days.

Documentation

The NLRB Casehandling Manual states that the Board agent should make the
first phone call regarding a petition as soon as possible after the filing, mail
service and, if possible, facsimile service of the petition, preferably no later than
the following day. The manual further states that information elicited in the
investigation should be incorporated into the case file.

Two Regional Offices did not have the initial contact with the petitioner in the
case files. Region 11 did not have documentation of contact with the petitioner
in the case file in 2 of 20 cases (10 percent). Region 13 did not have
documentation of contact with the petitioner in 3 of 20 cases (15 percent).

We did not include a recommendation related to this finding because the issue
was already addressed by an internal report based on the internal quality
control review process.


TRAVEL AND ALTERNATE INVESTIGATIVE TECHNIQUES

OM Memorandum 05-07, Casehandling Cost Saving Instructions for Fiscal
Year 2005, dated October 19, 2004, extended the use of the cost savings
measures instituted in the preceding fiscal year by OM Memorandum 04-30,
Casehandling Cost Saving Instructions, dated February 20, 2004. OM
Memorandum 04-30 states that each Regional Office should continue to
manage Regional travel, clustering travel assignments for Board agents and


                                         6
avoiding non-essential travel while ensuring that appropriate alternative
investigative techniques are employed in lieu of travel. OM Memorandum 05-
100 continues these instructions for FY 2006.

Region 2 and Region 13 are geographically compact and require little travel.
Region 32 has most of its cases in the area of the Regional Office, but has some
areas to which it must travel. Region 11 is the most geographically dispersed
Region that we visited. The Regional Offices that have travel use different
techniques to manage travel, but both appear to make business sense.

Region 32 discusses travel during supervisor meetings to identify areas that
agents need to travel to and determine whether some of this travel could be
combined. Combining travel, however, is dependent on the timing of cases.
Region 11 coordinates travel by dividing the Region into 5 geographic areas and
assigning a field examiner to each area. Category III cases, which require
travel, are assigned to the examiner in that area. These assignments are
rotated every 75 days.

One of the alternate investigative techniques is the use of telephone affidavits
in Category I and most Category II cases. This saves time and travel costs.
Region 2 and Region 13, which are geographically compact, obtained affidavits
in person. Region 32 obtained some telephone affidavits for lower priority
cases where distance was a factor. Region 11 made the greatest use of
telephone affidavits, consistent with a geographically disbursed Region.


DATA ACCURACY

C Cases

Of the 11 data elements tested, only one Regional Office had 1 data element
with an error rate equal to or greater than 10 percent, a rate we consider
significant. Region 13 recorded an incorrect closing date for 8 of the 33 C
cases tested (24.2 percent). Two closed cases did not have a closing date and
the errors in the remaining six cases were between 3 days and 7 days. In five
of these cases, the Region used the end of the appeal period as the closing date
in dismissed cases. OM Memorandum 03-100, Uniform Procedures for
Entering Disposition/Closing Dates in CATS, dated August 4, 2003, states that
the closing date will be 21 days after the date of the dismissal letter, if no
appeal is filed.

R Cases

Of the 16 data elements tested, 5 data elements had a number of errors that
we consider significant. Each Regional Office visited had at least one data



                                       7
element with significant data errors. The errors ranged from 1 day to 59 days.
The results are shown below.


                            R Case Data Accuracy

                              R-2             R-11      R-13      R-32
                             No.   %         No.   %   No.   %   No.   %
Date election agreement       2   10          1    5    1    5    0    0
approved
Date election held             0     0        3   15    0    0     1      5
Date certification of          1     5        0    0    2   10     0      0
results or representative
Closing date                   0     0        0    0    4   20     2   10
Closing stage                  0     0        0    0    4   20     1    5

We did not include a recommendation related to this finding because the
criteria regarding proper data input is clear and the Agency recently
implemented improvements to its data integrity program.




                                         8
                                                  ATTACHMENT

    Universe of Transactions Available for Testing


                       C Cases


                 Cases with         Sample Size
                Determination
Region   2          1,200                38
Region   11           495                33
Region   13         1,146                33
Region   32           769                33


                       R Cases


                 Cases Filed        Sample Size
Region   2           149               20
Region   11           49               20
Region   13          203               20
Region   32          133               20




                          9
APPENDIX
UNITED STATES GOVERNMENT
National Labor Relations Board
Division of Operations-Management


Memorandum
                                                                       March 9, 2006

        TO:          Jane E. Altenhofen, Inspector General

        FROM:        Richard A. Siegel, Associate General Counsel

        SUBJECT:     Regional Office Casehandling Efficiency
                     OIG-AMR-50



              We have reviewed the draft report regarding Regional Office
        Casehandling Efficiency and have no comments on any aspect of the report.
        Thank you for the opportunity to review and comment on the draft.




        cc:   Beth Tursell, DAGC
